COCKLE

2311 Dougla E-Mail y
3 douglas Street L e g a l B rie fs Mail Address:

Omaha, Nebraska 68102-1214 contact@cocklelegalbriefs.com
Est. 1923 “

1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No. 20-1525

LEWIS ARCHER,
Petitioner,
F.
AMERICA’S FIRST FEDERAL CREDIT UNION.
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the RESPONDENT’S BRIEF IN
OPPOSITION TO PETITION FOR WRIT OF CERTIORARI in the above entitled case complies
with the typeface requirement of Supreme Court Rule 33.1(b), being prepared in New Century
Schoolbook 12 point for the text and 10 point for the footnotes, and this brief contains 1295 words,

excluding the parts that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 26th day of May, 2021.
1am duly authorized under the laws of the State of Nebraska to administer oaths.

Kepte. 0. Slave? Qudiawh, Gh Le

Affiant

   
 

  

GENERAL NOTARY-State of Nebraska

RENEE J. GOSS
art hees My Comm. Exp. September 5, 2023

 

 

Notary Public
y 41046
